\\

o

•v -V

.L_=

No.

IN THE SUPREME COURT O
UNITED STATES

D
JUL 2 9 2021

NAGUI MANKARUSE
Plaintiff and Petitioner
V.

INTEL CORPORATION, ET AL,
Defendants and Respondents,

PETITION FOR WRIT OF CERTIORARI
After Final Decision of the United States Court of Appeals for the Federal
Circuit Denial of the Petition of the Panel Rehearing and Rehearing En Banc,
Docket Case Number 2020-2297, July 8, 2021
After Order of The Unites States Court of the Central District of California,
Southern Division, The Honorable David O. Carter Presiding
Docket Case Number 8:19-cv-01902-DOC-JDEx

NAGUI MANKARUSE
19081 Carp Circle
Huntington Beach, CA 92646
Petitioner, In Pro Se
Tel: (714) 840-9673
Mobile: (714) 580-3777
Fax: (714) 846-5012
Emailimanka ruse@gmail.com
mankaruse@aol.com

cu

Q0
to

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

QUESTIONS PRESENTED
I.

Whether the Honorable United States Supreme Court must
defend our Great United States Constitution?

II.

Whether the Honorable United States Supreme Court must
defend American Citizens rights to equally live under the United
States Constitution of all its provisions?

III.

Whether the Honorable United States Supreme Court will allow
the serious violations and the following direct attack on the Bill of
Rights and the First, Fifth, Eighth, ana Fourteenth Amendments
all in the same time to one American Citizen in the two related
Patent cases Petitioned for Review here by this Honorable Highest
Court of the land, and not to be strong precedence to all following
Actions of any American “Individual or Entity” and Ignore Our
Great American Constitution?

l.Whether the United States Supreme Court must defend the Bill of
Rights of our Great United States Constitution?
“...It guarantees civil rights and liberties to the individual-like freedom of
speecnThress, and relision. It sets the rules for due process of the lawaimserves
all powers not delegated to the Federal Government to the people of the
States...”

2.Whether the United States Supreme Court must defend the First
Amendment of our Great United States Constitution?
“...Or abridging the freedom ofspeeclu or of the press; or the right of the
people peaceably to assemble♦ and to petition the Government for a redress of
srievances. ”
3.Whether the United States Supreme Court must defend the Fifth
Amendment of our Great United States Constitution?
“...when in actual service in time of War or public danger: nor shall any
person be subject for the same offence to be twice put in jeopardy of life or limb;
... nor be deprived of life, liberty\ or property, without due process of law; nor
shall private property be taken for public use, without just compensation....
4.Whether the Unites States Supreme Court must defend the Eighth
Amendment nor our Great United States Constitution?
“...nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limbi... nor be deprived of life, liberty, or propertvrwithout

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

CN
<u

2C O
l

due process of law; nor shall private property be taken forpublic use, without
_____
just compensation. IThe United States Constitution prohibits the federal
Government from imposing excessive bail, excessive fines, or cruel and unusual
punishments. ”
5.Whether the United States Supreme Court must defend the
Fourteenth Amendment of Our Great United States Constitution?
“No State shall make or enforce any law which shall abridge the vrivileses or
immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws, “
6.Whether the Unites States must respect the Great State of California
Declaration of Rights defend its California State Constitution; Article One?.
“Article I is par? of the Great United States Constitution of the
Fourteenth Amendment.”
“...defending life and liberty. Acquiring. possessing, and protecting
property, ana pursuing happiness and privacy. ”
The above are important questions of law where it appears necessary to
secure uniformity of decisions and or the settlement and seriously the
important issues that all Americans must be treated EQUALY “individuals or
entities” under the United States Constitution are presented here in this
ACTION for the review by the Honorable Supreme Court Justices of the
United States of America.
This Petitioner is crying for JUSTICE in the land of law and justice,
please rescue. This Honorable Court is the last Resort on Earth.

mcu

ao
co

Q-

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

LIST OF PARTIES
PETETIONER:
Nagui Mankaruse, In Pro Se

RESPONDERS are represented by MUNGER, TOLLS & OLSON, LLP;
“Peter E. Gratzinger, Council”
The Respondents are:
Intel Corporation, a Delaware Corporation,
Acer America Corporation, a Delaware Corporation,
Daniel Patrick Doctor, an Individual,
Andy D. Bryant, an individual,
Matthew Robert Hulse, an individual

RELATED CASES
Nagui Mankaruse v. Intel Corporation, et al, United States Supreme Court, Petition Writ
of Certiorari

CU
GO

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

TABLE OF CONTENTS
QUESTIONS PRESENTED

2

LIST OF PARTIES

4

RELATED CASEES

.4

TABLE OF AUTHOROTIIES

6

INDEX TO APPENDICES

13

INTRODUCTION

15

OPENIONS BELOW

16

JURISDICTION

16

NECCESISITY FOR REVIEW

19

REASONS FOR GRANTING THIS WRIT

19

CONSTITUTIONAL AND STATUARY PROVISIONS INVOLVED

21

STATEMENT OF CASE

23

SUMMARY OF THE ARGUMENT

32

ARGUMENT

37

CONCLUSION

.49

DCLARATION

50

CERTIFICATION OF COMPLIENCE

54

PROOF OF SERVICE

55

APPENDECES

56

LO

CD
DO

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

TABLE OF AUTHORITIES
THE UNITED STATES CONSTITUTION
l.The Bill of Rights
The United States Bill of Rights comprises the first ten amendments (I) through
00 to the United States Constitution. “It guarantees civil rights and liberties to
the individual-like freedom of speech, press, and religion. It sets the rules for
due process of the law and serves all powers not delegated to the Federal
Government to the people of the States.”
2.The First Amendment
Congress shall make no law respecting an establishment of religion or
prohibiting the free exercise thereof; or abridging the freedom of speech* or of
the press: or the rieht of the people peaceably to assemble, and to petition the
Government for a redress of grievances.
3.The Fifth Amendment
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time of
War or public danger; nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of taw; nor shall private property be taken for public use.
without just compensation. |On March 19, 2001, the United States Supreme
Court handed down a per curium opinion in Ohio v. Reiner, holding that the
Fifth Amendment right against seif-incrimination protects the innocent as well
as the guilty.]
4.The Eight Amendment
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time of
War or public danger; nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb: nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for
public use, without just compensation, fThe United States Constitution prohibits
the federal government from imposins excessive bail. excessive fines, or cruel
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

LO

<u

QO
TO

and unusual punishments. This amendment was adopted on December 15,1791,
along with the rest of the United States Bill ofRights.]
5.The Fourteenth Amendment
No State shall make or enforce any law which shall abridse the privileses or
immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.
FEDERAL CASE LAW
1.Anderson Nat'l Bank v. Luckett,
321 U.S. 233, 244 (1944)
2. Cf. Bankers Life & Casualty Co. v. Crenshaw
486 U.S. (1988)
3. Be & K Constr. Co. v. NLRB
(2002) 536 U.S. 516, 53
5. Bill Johnson's Restaurants, Inc. v. NLRB,
461 U.S: 731, 743 (1983)
6. Boddie v. Connectic
401 U.S. 371 (1971)
I. Brockett v. Spokane Arcades, Inc.,
472 U.S. 491, 105 S. Ct. 2794, 86 L. Ed. 2d 394 (1985)
8. California Motor Transport v. Trucking Unlimited,
404 U.S.508, 612 (1972).
9. Chicago, B. & Q. R.R. v. Chicago,
166 U.S. 226(1897)
10. Coates v. City of Cincinnati,
402 U.S. 611, 616 (1971)
II. Cohen v. Beneficial Industrial Loan Corp.,
337 U.S. 541 [69 S. Ct. 1221, 93 L. Ed. 1528}
12. Crandall v. Nevada,
73 U.S. (6 Wall.) 35 (1867),
13. Eastern R. Conference u. Noor Motors:
365 us 127(1961)
14. Jordan v. Massachusetts,
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

r-.

CL>
DO

CL

225 US. 167, 176(1912)
15. Mine Workers v. Illinois Bar Assn.,
389 u. s. 217, 222(1967)
16. NAACP v. Button, 371 U.S.
415, 432-33 (1963);
17. Professional Real Estate Investors,
508 US, at 58-61.
18. Snyder v. Massachusetts,
291 U.S. 97, 105 (1934)
19. Twining v. New Jersey,
211 U.S. 78, 101 (1908)
20. West v. Louisiana,
194 U.S. 258, 263 (1904)
21. United States v. Cruikshank,
92 U. S. 542, 552 (1876)
22. United States v. Harris,
106 U.S. 629
FEDERAL STATUES
42 U.S.C. §1983 (1994)
461 U.S. at 743
404 U.S. 508,612 (1972)
Direct & Indirect Infringement 35 USC, 27(a), 271 USC (b), 271 USC (c)

CALIFORNIA STATE CONSTITUTION “1879”
ARTICLE 1 DECLARATION OF RIGHTS [SECTION 1-SEC. 32
(Article 1 adapted 1879.)
All people are by nature free and independent and have inalienable
rights. Among these are enjoying and defendins life and liberty.
happiness
Acquiring♦ possessing, and protecting property, and pursuing
i
.
and privacy.
(Sec. 1 added Nov. 5, 1974, by Proposition 7. Resolution Chapter 90, 1974.)
No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any"
person of life, liberty, or property, without due process of law: nor deny to any
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

00

a>

oo

S.

person within its jurisdiction the equal protection of the laws.
SECTION 2. (a) Every verson may freely speak* write and publish his or her
sentiments on all subjects>, being responsible for the abuse of this risht. A law
may not restrain or abridge liberty of speech or press.1
CALIFORNIA STATE CASE LAW
23.Nagui Mankaruse v. Raytheon Company
30-2017-00934 796-CU-IP-CJC, Volume I, Pages I-lthrough 6
24. Auto Equity Sales, Inc. v. Superior Court
(1962) 57 Cal.2a 450
25. Beyerbach v. Juno Oil Co.,
[236 Cal. App. 2d 528]
26. Bilyeu v. State Employees* Retirement System,
58 Cal. 2d 618/24 Cal. Rptr. 562, 375 P.2d 4421)
27. Camerado Ins. Agency, Inc. v. Superior Court (Stolz),
16 Cal. Rptr. 2d 42 (Ct. App.1993)
28. Gray v. Zurich Insurance Co. 31
(1966) 65 Cal. 2d 263, 276 [54 Cal.Rptr. 104, 419 P.2dl68])
29. Los Angeles County Bar Ass fn v. Eu,
979 F.2d 697, 705-06 (9™ Cir. 1992)
30. Muller v. Tanner,
82 Cal. Rptr. 738, 741 n.2 (Ct. App. 1970)
31. Parish v. Parish, 30
988 A.2d 1180, 412 N.J.2O10. Super. 39, 54
32. Professional Fire Fighters, Inc. v. City of Los Angeles,
60 Cal. 2d 276[32 Cal. Rptr. 830, 384 P.2d 158}
33. Shalant v. Girardi
(2011) 51 Cal.4th U64, 545, 554,1176
34. Shari Lynn Poliak F/K/A Sharon Lynn Poliak Kalen V. David
Kalen,
App. Div., A 4185-0913, July 5, 2012.

30

35. Taliaferro v. Hoogs
46 Cal. Rptr. 147 (Ct. App. 1965), at[5]
36. Wolfgram v. Wells Fargo Bank,
61 Cal. Rptr. 2d 694, 704 (Cal. App. 1997)

cn
37.Funding v. Chicago Pneumatic Tool Co., 152 Cal.App.3d 951,955 (1984)
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

b0
Q_

38.Dell E. Web b Corp. v. Structural Materials Co., 123 Cal.App.3d 593,604
(1981)
39.Lambert v. Carnegie (2008) 156 Cal App 4th 1120,1126.
40.C.A. v. William S. Hart Union High School Dist. (2012) 53 Cal 4th 861, 872.
41.Allied Equip. Corp. v. Litton Saudi Arabia Ltd., 7 Cal. 4th 503, 510-11
42.See idGlue-Fold, Inc. v. Slautterback Corp., 82 Cal.App.4th 1018,1024-26
(Cal. Ct. App. 2000).
43.Green Foothills v. Santa Clara County Board of Supervisors (2010) 48
CaMth 32, 42
44.May v. City of Milpitas (2013) 217 Cal.App.4th 1307,1324.”
CALIFORNIA STATUTE & LOCAL RULES
California Code of Civil Procedure - CCP § [391-391^
391 (b)(2) After a litigation has been finally determined against the
person, repeatedly relitigates or attempts to relitigate, in propria
persona, either (i) the validity of the determination against the same
defendant or defendants as to whom the litisation was finally determined.
(3) In any litigation while acting in propria persona, repeatedly files
unmeritorious motions, pleadings, or other payers, conducts unnecessary
discovery, or engages in other tactics that are frivolous or solely intended
to cause unnecessary delay.
Trade Secrets Law in California
The California Uniform Trade Secrets Act (“CUTSA”
California Code ofCivil Procedure (CCCP 3426-3426.11)
The California Uniform Trade Secrets Act ("CUTSA") is located at sections
3426 to 3426.11 of the California Civil Code. CUTSA prohibits
'’misappropriation" of trade secrets and provides certain remedies. In
addition, California law may impose criminal penalties for stealing trade
secrets. See Cal. Penal Code §§ 499c, 502.
CALIFORNIA STATE STATUTES
The Vexatious law California Civil law of Procedure CCP 391
California Code of Civil Procedure § 452

O
DC

ru

Q_

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

California Unified Trade Secret Act, CUTSA law (CCP 3426-3426.11),
CCP 430.41(b), CCP 430.41(c)
Added by Stats. 1984, Ch. 1724, Sec. 1
Government Code, § 68630, 686633
California State Cases of Authorities
OTHER OPINIONS WORK
1.Robert G. Bone,
Modeling Frivolous Suits, 145 U. PA. L.
REV.519,520 (1997)
2.Jacobs, Arnold S,
Cornell Law Review, supra note 96, at 293 n.52
(1973)
3.Andrews, Carol Rice
A Right of Access to Court Under the Petition Clause of the First
Amendment: Defining the Right, 60 Ohio St. L. J. 557,656 (1999)
4.supra, note 38, at 1059. supra note 4, at 968
Wafdman, First Amendment Right of Access
5.“Supreme Court on May 31, 2011 ruled on Indirect Infringement
“Global Tech Appliances, Inc. etal. v. SEB. S.A."
6.Underwater Storage Inc. v. U.S. Rubber Co., 371 F.2d 950, 955 (D.C. Cir.
1966)
1.Cochise Consultancy, Inc. v. United States ex rel. Hunt, No. 18-315, 2019 WL
2078086 (U.S. May 13, 2019),
Graham Ctv. Soil Water Con, v. U.S. ex Rel. Wilson. 545 U.S. 409 (2005)
8.Graham County Soil & Water Conservation District v. United States,
9.Monolith Portland Midwest Co. v. Kaiser Aluminum & Chern. Corp., 407 F.2d
288,292-93 (9th Cir. 1969)
lO.Supreme Court Addresses False Claims Act Statute of Limitations.... As
when the Court granted certiorari, the FCA has two statute of limitations.
Normally, a case must be brought within 6 years of “the date on which the
violation of [the False Claims Act] is committed.” 31 U.S.C. § 3731(b)
QD
CL

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

11.JEFFREY J. HEFFERNAN, PETITIONER v. CITY OF PATERSON, NEW
JERSEY; ETAL. ON WRIT OF CERTIORARI TO THE UNITED STA TES
COURT OF APPEALS FOR THE THIRD CIRCUIT [April 26, 2016]
12. (Slip Opinion) OCTOBER TERM, 2015
13.Syllabus NOTE: Where it is feasible, a syllabus (headnote) will be released, as
is being done in connection with this case, at the time the opinion is issued. The
syllabus constitutes no part of the opinion of the Court but has been prepared by
the Reporter ofDecisions for the convenience of the reader. See United States v.
Detroit Timber & Lumber Co., 200 U. S. 321, 337. SUPREME COURT OF THE
UNITED STATES
U.Syllabus HEFFERNAN v. CITY OF PA TERSON, NEW JERSEY, ETAL.
15.CERTIORARI TO THE UNITED STA TES COURT OF APPEALS FOR
THE THIRD CIRCUIT No. 14-1280. Argued January 19, 2016—Decided April
26, 2016. “civil action under section 3730.

CM
GO
CD
CL

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

NAGUI MANKARUSE v. INTEL CORPORATION APENDECES
I.0 INTEL Corporate Non-Disclosure Agreement (“CNDA”) on 06/08/ 2004
2.0 INTEL Confidential Document
3.0The Federal Circuit Final Order Denied Nagui Mankaruse v. Intel
Corporation Panel Rehearing and Rehearing En Banc on July 8, 2021
4.0 The Federal Circuit Order Affirmed District Court Order to Transfer
Nagui Mankaruse v. Intel Corporation Case to the Federal Court Judgement
5.0 Ruling of the United States Court for the Central District of California,
Southern Division of Nagui Mankaruse v. Intel Corporation
6.0 Ruling California State Court of Appeal Case # G056143
7.0 Ruling California State Court on Nagui Mankaruse v. Intel Corporation,
Case # 30-2016-00884058-CU-IP-CJC
8.0 Docket the Federal Circuit Nagui Mankaruse v. Intel Corporation
9.0 Docket of the United States Court for the Ninth Circuit Order Transfer
Nagui Mankaruse v. Intel Corporation Case to the Federal Circuit based on
Intel Unilateral request on 09/21/2021
10.0 Docket United States Court for the Central District of California,
Southern Division of Nagui Mankaruse v. Intel Corporation
II.0 Docket State Court of California Nagui Mankaruse v. Intel Corporation
Case #30-2016-00884058-CU-IP-CJC
12.0 Intel Memorandum Declaration of Nagui Mankaruse, Appellant and
Plaintiff; Submitted to the Federal Circuit on 4/14/2021.
13.0 State Court Order DENIED Raytheon Motion to Declare Nagui
Mankaruse Vexatious Litigant Dated 8/1/2019.
14.0 Raytheon Memorandum Declaration of Nagui Mankaruse, Appellant and
Plaintiff, Summery Analysis of State Court Order DENIED Raytheon Motion
to Declare Nagui Mankaruse; Submitted to the Federal Circuit submitted to
the Federal Circuit on 4/14/2021.
15.0 United States Patent # 6,411,512 Cover Sheet
16.0 Canada Patent # 2,389,458 Cover Sheet
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

m
QO
O-

IN THE SUPREME COURT OF THE
UNITED STATES
NAGUI MANKARUSE
Plaintiff and Petitioner
v.

INTEL CORPORATION, ET AL,
Defendants and Respondents,

PETITION FOR WRIT OF CERTIORARI
After Final Decision of the United States Court of Appeals for the Federal
Circuit Denial of the Petition of the Panel Rehearing and Rehearing En Banc,
Docket Case Number 2020-2297, July 8, 2021
After Order of The Unites States Court of the Central District of California,
Southern Division, The Honorable David O. Carter Presiding
Docket Case Number 8:19-cv-01902-DOC-JDEx

NAGUI MANKARUSE
19081 Carp Circle
Huntington Beach, CA 92646
Petitioner, In Pro Se
Tel: (714) 840-9673
Mobile: (714) 580-3777
Fax: (714) 846-5012
Ernail:mankaruse@gmaiI.com
mankaruse@aol.com

^f*
QO

£3

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

INTRODUCTION
l.Nagui Mankaruse plaintiff and petitioner in the United
States Supreme Court petition for Writ of Certiorari respectfully
asking the review of the whole matter De Novo by our Honorable
Highest Court of the Land as the last resort to get Justice in our
Great Nation. This petitioner has exhausted all efforts for
settlements communications with Mr. Paul Otilini and Mr. Andy
Bryant “current defendant” Intel Chairman/CEO in the prior
two executive management teams without any kind of response
except defense Councils Ms. Carolyn Hoecker ludtke and Mr.
Peter Gratzinger who have acknowledged that Intel have
started using the patented CPU Cooler in 2010 and offered one
sided settlement with Mankaruse, is to dismiss the Case while
the Claim is pending in the State Court case of 2016 and In the
District Court case of 2019 “this case”.
2.No other appeal in or from the same civil action or proceeding in the
district court was previously before this or any other appellate court except
current Intel & Raytheon cases which can be precedence (“Appendix 9”) as a
beginning of endless series of violations to the United States Constitution in
many directions.

LO
DO
Cl

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

OPENIONS OF THE FEDERAL CIRCUIT COURT OF APPEALS BELOW
3.The Federal Circuit Court in its judgment on May 7, 2021, has
affirmed the District Court’s Dismissed of (Appendix 13-20) Mankaruse case
against Intel and the parties shall bear their own costs. The Federal Circuit
Court has also noted that the disposition is “nonprecedential” (“Appendix
13”)
4.The petition for Panel Rehearing and Rehearing En Bank in July 8,
2021 have Ordered the following.
Upon consideration thereof,
The petition for panel rehearing is denied
The petition for rehearing en bank is denied
The mandates of the court will issue on July 15, 2021.
JURISDICTION
5.The petitioner respectfully ask the Honorable United States Supreme
Court to Grant the writ of certiorari as a matter of urgent and compelling
reasons. The following, although nor controlling nor fully measuring the
Courts direction indicate the character of the reasons the Court considers:
6.The United States Court of Appeals for the Federal Circuit has
entered a decision in conflict with the United States Constitution Bill of Rights
and multiple Amendment (“First, Fifth, Eight, and Fourteenth”) on this
important matter; has decided an important federal question in way that also

L£)
CUD
CL

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

conflicts with a decision by the California State Court (“Appendix 100-105“)
and has so far departed from the accepted and usual course of judicial
proceedings. And departure by the District Court as to call for an exercise the
court supervisory power (“discretion of the Court”) violating the Bill of
Rights” ... It guarantees civil rights and liberties to the individual-like
freedom of speech,...”, the First Amendment (“... abridging the freedom of
speech, or of the press: or the right of the people peaceably to assemble, and to
petition the Government for a redress of grievances....”) and the Fifth
Amendment (“...nor shall any person be subject for the same offence to be
twice put in jeopardy of life or limb: ...nor be deprived of life, liberty, or
property, without due process of law: nor shall private property be taken for
public use, without just compensation”) and the Eighth Amendment (“...nor
shall any person be subject for the same offence to be twice put in jeopardy of
life or limb; ,nor be deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use, without just
compensation...”). [The United States Constitution prohibits the federal
government from imposing excessive bail, excessive fines, or cruel and
unusual punishments, and the Fourteenth Amendment (“...No State shall
make or enforce any law which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State deprive any person of life.
GO
CL

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws...”)
7.The United States District Court and the United States Federal
Circuit Court of appeals has decided an important question of federal law
that has not been, but should be settled by this Court, and also decided an
important federal question in a way that conflicts with relevant decisions of
this Court.
8.This case has asserted error consists of enormous factual findings and
misapplication of properly stated in the United States Constitution in the Bill
of Rights and 1st, 5th, 8th, and 14th amendments.
9.A Timely petition for re-hearing was therefore denied, entered on the
following date of July 8, 2021 and a copy of the re-hearing petition and the
Order Denial in the Appellant Court Case Information are in (“Appendix 910”)

lO.On the Petition for a Writ of Certiorari is filed by US next day mail
within the time limit as set by law.

00
O0
Q_

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

NECESSITY FOR REVIEW
11. The United States Court of Appeal’s for the Federal Circuit opinions
in this case breaks sharply with this Court’s proud history of protecting Our
Great United States Constitution and every American Constitutional Rights.
12. When faced with “extensive evidence” INTEL for years have
diverted the attention of the Trial Courts to side issues departing out from the
merits of the case like frivolous motions including motion to declare Nagui
Mankaruse a vexatious Litigant that consumed time from the filing of the
amended Compliant until this time now “about 20 months” and still more to
come if we are ever going to see a trial in this Action.
13.The District Court Have Erred granting this motion to the
defendants in January 21, 2020 (“Appendix 24-25”) which completely ended
the entire case before we even come to any merits. INTEL is a major
multinational corporation, with influence and unlimited resources acting in
bad faith to get away with deliberate intention violating their signed CNDA
and associated documents (“Appendix 3-8”) to get away with the high-profile
infringement without meeting any of its obligations.
REASONS FOR GRANTING THE WRIT
14.This ruling by the District Court Errors Affirmed by the Opinion of
the Federal Circuit Appeals Court is making a precedence however even is
not to be published (“because it is misstated legal definitions or Errored”) can
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

CD
QC
CL

be precedence for many future cases and many grievances and complaints in
the Courts of Law of our Great Nation the United States of America and the
State of California and other Great States as well can abort many cases and
many innocent plaintiffs will lose many valuable Constitutional Rights as a
result will be lost forever because of this precedence and Justice will suffer.
15.The legitimate rights of the Petitioner Plaintiff in this high-profile
Action can be lost and Justice is the loser to every American and every
Californian, however allowing the plaintiff to have his day in Court is
preserved and his United States Constitutional Rights, Federal legal rights
and Justice can prevail.
16. Many Californians have lost their United States Constitutional
rights due to the vexatious law, California Civil law of Procedure CCP 391,
Including loss of property that they were not able to defend if they didn’t have
or cannot afford legal Counsel and involved in many activities that warrants
them to exercise their Constitutional Rights to have their day in Court to get
their property back particularly if these Americans or Californians up against
big entities or powerful defendants as the example present itself here with this
Petitioner Plaintiff Appellant while he is up against large multinational
Corporations and serve our Society at his best and asking for Justice while we
are all equal under the United States Constitution.
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

O
rsi
DO
Q_

17. The District Court Erred in its decision and the United States
Appeals Court for the Federal Circuit has completely GUESSED in his
Judgment (Ruling) and didn’t consider or noticed any of the documented
evidences supported by the United States Constitution Amendments
presented by the petitioner plaintiff all documented evidences presented to the
Courts in every Item raised by the Amended Complaint, the Brief and Reply
on Appel and on the Panel Rehearing & Rehearing en banc Briefs In fact the
District Court and The Federal Circuit in there Ruling completely ignored
every fact that have been extensively documented and were available to the
District Court during the allowed litigation.
CONSTITUTIONAL AND STATUARY PROVISIONS VIOLATED BY THE
DISTRICT COURT AND THE FEDERAL CIRCUIT
18.The United States Bill of Rights.

“The Table of Authorities; Bill of Rights comprises the first ten amendments
(I) through (X) to the United States Constitution. “It guarantees civil rights
and liberties to the individual-like freedom of speech, press, and religion. It
sets the rules for due process of the law and serves all powers not delegated to
the Federal Government to the people of the States.”
19.The First Amendment
Congress shall make no law respecting an establishment of religion or
prohibiting the free exercise thereof; or abridging the freedom of speech, or of
the press; or the right of the people peaceably to assemble, and to petition the
Government for a redress of grievances.

CN
QO

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

20.The Fifth Amendment
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time of
War or public danger: nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for
public use, without just compensation. IQn March 19, 2001, the United States
Supreme Court handed down a per curium opinion in Ohio v. Reiner, holding
that the Fifth Amendment right against self-incrimination protects the innocent
as well as the guilty.)
21.The Eight Amendment
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time of
War or public danger; nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for
public use, without just compensation. IThe United States Constitution
prohibits the federal government from imposing excessive bail, excessive fines,
or cruel and unusual punishments. This amendment was adopted on
December 15,1791, along with the rest of the United States Bill of Rights.]
22.The Fourteenth Amendment
No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law: nor deny to
any person within its jurisdiction the equal protection of the laws.
FEDERAL LAWS GOVERNS THE PATENT INFRINGEMENTS
23.lndirect Infringement 35 U.S.C. 271 and 271(b)
24.Direct Infringment35 U.S.C. 271(a)
rN

CALIFORNIA STATE CONSTITUTION “1879”

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

cm
ID
QO

25. ARTICLE 1 DECLARATION OF RIGHTS [SECTION 1-SEC. 32
(Article 1 adapted 1879.)
i

26.AU people are by nature free and independent and have inalienable
rights. Among these are enjoying and defending life and liberty.
Acquiring, possessing, ana protecting property,and pursuing happiness
and privacy.
(Sec. 1 added Nov. 5, 1974, by Proposition 7. Resolution Chapter 90,
1974.)

27,No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States: nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.
28.SECTION 2. (a) Every person may freely speak, write and publish his or
her sentiments on all subjects, being responsible for the abuse of this right. A
law may not restrain or abridge liberty of speech or press.l
29.The Federal law protects trade secrets?
30.The Defend Trade Secrets Act of 2016 (DTSA) (Pu____________________
b.L. 114-153,130 Stat.
376. enacted May 11, 2016. codified at 18 U.S.C. § 1836. et seq.) is a United
States federal law that allows an owner of a trade secret to sue in federal court
when its trade secrets have been misappropriated.
31.Trade Secrets Law in California
The California Uniform Trade Secrets Act (“CUTSA”
California Code of Civil Procedure (CCCP 3426 -3426.11)
32.The California Uniform Trade Secrets Act (’’CUTSA") is located at
sections 3426 to 3426.11 of the California Civil Code. CUTSA prohibits
"misappropriation" of trade secrets and provides certain remedies. In
addition, California law may impose criminal penalties for stealing trade
secrets. See Cal. Penal Code §§ 499c, 502.
STATEMENT OF THE CASE AND FACTS
33.The petitioner plaintiff Filed his Brief on Appeal to the Federal
Circuit Court regarding ERRED Rulings by the District Court of the Central
District Court of California, Southern Division declaring Nagui Mankaruse
on

Vexatious Litigant followed by Striking the 1st amended complaints against

rsi<L>

Q0

ro

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

Intel and cancelling the Scheduling Conference right before the start of the
Discoveries after the Scheduled Conferences in ERROR (Ruling entered on
1/21/2020 hearing (Appendix 23-25) and Mankaruse v. Intel Ruling entered
from Chamber work after the postponed hearing for Intel was canceled on the
original date of 1/21/2020 to 1/27/2020. Violating the Superior Court of
California County of Orange, the Honorable James L. Crandall Presiding in
five pages Ordered on August 01, 2019 (Appendix 100-105) that this plaintiff
is NOT a Vexatious Litigant.
34.This Petitioner Appellant / plaintiff is under several types of abuses
by these two multi-national companies (“INTEL & Raytheon”) and their
management for long time (“Documented”). This appellant / plaintiff has done
nothing wrong; this petitioner / plaintiff didn’t abuse the legal system, these
Appellee’s / defendants abused this petitioner appellant / plaintiff and the
legal system for long time including in the Courts while he came to the Courts
to protect himself and his legal and Constitutional Rights from these appellees
/ defendants’ misconduct (“Intel et al”) and the place this can be done is in the
court of law. These respondents / defendants are the abusers of the legal
system of our Nation without limitation, they believe that because they are big
multinational entities with unlimited resources, they must have the right to do
^1"
rN
QO

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

anything they like even abusing the legal system of the land and abusing the
Courts and the Constitution.
35.The petitioner Appellant / plaintiff only did one thing which is filed
the Complaints and since then he didn’t do nothing more than just responding
to these defendants’ frivolous motions after motions filed in bundles in the
State Court and repeating the same strategies in this District Court now Intel
and Federal Circuit (“Appendix 93-98 & 107-111”)
36.The Honorable District Court Initial Order setting R26 scheduling
conference for INTEL & Raytheon on 11/06/2019 (“Appendix 54-60”) to be
on January 13, 2020 and continued to the following week on January 21, 2020
turned to be a maze of frivolous motions filed by Appellees / defendants Intel
where bundles of frivolous motions (“nine (9) frivolous motions”) to be heard
in the same day for the two cases (“Intel & Raytheon”) plus the R26
scheduling conference. It is only clear from the simple reviewing of the
dockets (“Appendix 53-91”) are the number of motions the respondents /
defendants (“Intel”) have filed over the years not related to the merits of the
cases, no case until today have been crossed the complaint stage except
frivolous motions by the defendants just the petitioner plaintiff filed a
complaint and followed by bundles of motions consumed years in courts
without getting to the point of what the case is all about. Intel et al are those

LO
CM
on
CL

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

who are abusing the legal system not the petitioner / plaintiff. This style of
abuse repeated itself in every Court case until they are messed up all of them
one by one.
37.This petitioner / plaintiff believes that we shouldn’t be in any Court
at all, while the issues are very simple and clear if there is Good Faith, the
petitioner / plaintiff was abused from both top managements of the multi­
national Corporations (“Intel”) early on and after Disclosing his Patented
technologies and Intellectual Property to Intel since 2004 and 2007 if the
parties can set together individually in good faith settlement conference
everything can be solved in few hours out of court. It is very simple, INTEL
used the plaintiffs technologies and Intellectual Property, and it is now in
every computer in the world, they simply must pay the bill. But they know
and stated that they started these several attempted for settlement requests
over the years, and then refused plaintiff request to settle the status of the
Intel CPUs that used the patented CPU Cooler in their products that they
want Mankaruse to dismiss the case and they run free with the illegal use of
the patented technologies. The fair offer to settle out of court is always
available and is available also now.
38.First, the petitioner litigant “plaintiff’ in this Honorable District
Court was not heard in the Intel Case, didn’t get noticed what the Order in

LO
C\l
00
CL

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

Intel Case. Second the District Court missed the careful examination of the
history of the compiled record for review which resulted in ERRD decision, i)
since the plaintiff did nothing over the years more than filing the complaints
which is a Constitutional Right (“the Bill of Rights, lsl, 5th, 8th, and 14th
Amendments”), the defendants Intel did all the harassing to the plaintiff, by
filling the frivolous non-relating Motions after Motions and most of times in
bundles together (“all motions filed before the first hearings of Rule 26 (f) in
both Cases”), (“Appendix 53-91”) where the plaintiff had no power to limit
the frivolous motions9 numbers in every situations. Plaintiff is only must file
answers in time which in addition to consuming all these years in Courts
without moving any litigation beyond filing Complaints from the plaintiffs
side and short of getting to any Discoveries to trials, ii) the defendants Intel
filed multiple non-related Motions for the purposes of harassing the plaintiff
and overwhelm the Courts of non-related issues and consume time which
distracts the Courts from the real Merits to support why the Cases were filed,
in addition the defendants are spending huge unsubstantiated costs which
never mattered to them, just using the patented technologies for free “why the
defendants in a scheduling Conference Hearing brings three individual
Attorneys coming from all over the Nation, (“The Lead Council Came from
San Francisco, and another Councils Came from Los Angeles”) the

CM
00
CL

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

defendants have unlimited resources and their Councils of records are doing
terrific business for themselves and their Law Firms. The motivations here in
these incidences are great, they are far from searching for the truth on the
Merits of the issues which must be the goals of these Honorable Courts.
39. Our Courts are here to protect our great Constitution of the United
States and every American from any abuse coming to him / her including
abuse of American animals.
40.The Discovery in the Intel case was due to start after the Court Order
of the Completed Scheduling Conference which was stayed because of the
Vexatious Litigant thing request for Security Bonds valued at $25K that we
are turning in circles for several years in the State Court that we never held
any Discovery for no reason other than same defendants behaviors of over
whelming the Courts with frivolous unrelating Motions in bundles, and the
State Court never allowed the case beyond the complaint, which resulted in
granting it to the defendants. It is a very good example of Catch 22, we are
turning in circles and never get to any of the facts.
41.Why all of that are happening to this family as an Honest Patriotic
Americans live in Good Faith all of the time, love this Nation, love of freedom
and love to help anyone with what they have including Raytheon and Intel to
00

help our Military and our National Security for the safety of our Nation and

P4
DO

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

add to our National Economy. Our Patented technologies and Intellectual
Property helped tens of thousands of Americans in direct and indirect
employment in the projects without his participation using his patented
technologies in several projects over the years and continue to do so in the
case of Intel hundreds of thousands of personnel to make living working or
keep their jobs while plaintiff and family are living beyond animal’s standards
in the way they are treated by Intel. Plaintiff and family are still trying to save
their dignity and their prides as Americans which are humiliated by
Americans on American Soil, it is unbelievable and beyond the
comprehension of any mind to anyone hear about it. Anyway, it is this
Honorable Court to decide Justice, rightness and fairness based on the truth
and facts that are presented here and before and became public records to the
whole Nation and the whole world o see.
42.This plaintiff now at all times does have unlimited love for America
while here in these situations “The innocent became the Guilty and the Guilty
became innocent needs the protection of the Court” this cannot make any
sense to anyone. This is Un-American; all this abuse of the plaintiff and his
family by Raytheon and Intel the largest in the world in their line of business
are just unbelievable and even far from comprehension. This American family

cn
have done nothing bad in their whole life to be punished for. This family’s

CN

DO

2
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

Intellectual Property is stolen, and the Courts of this land must defend the
Constitutional rights of this American Family in Order to live like every
American family in our great society, this American family is very much
Protected by Our Constitution; the Bill of Rights, 1st, 5th, 8th, and 14th
Amendments as presented in this document.
43.This American plaintiffs history of litigation doesn’t incriminate
him, rather incriminate all the defendants Raytheon et al and Intel et al are
the ones who did the misconduct and the harassing to the plaintiff so he has to
defend himself in the Courts of law which is guaranteed to him by our
Constitution which we must hold on it very strongly as the only thing we have
to guarantee the values of our great society. The defendants continue filing
their frivolous Motions after Motions in bundles to delay and prolong the time
of litigation and the plaintiff cannot stop them. The Courts responsibilities are
to stop the defendants’ illegal behaviors in both cases of Raytheon and Intel.
This plaintiff has the complete faith not the fear in his motives to win the two
litigations if they are litigated on the merits, the defendants infringed on his
Patents and Intellectual Property. In the case of Intel never denied the
infringement on his Patents and Intellectual Property, in the same time
refusing to pay the bill or now settle while the evidence is available now in
O

every computer in the world.

00
ao
TO

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

44.The plaintiff was represented by Councils but were compromised by
the defendants one after the other, however this plaintiff now being Pro Se is
legal and believe he can sail thorough the trial process the next day if the
court allows it, the evidence he has can carry enouph proofs to support his
claims. The years spent by the defendants in litigating frivolous motions must
be stopped in this Honorable United States Supreme Court, the defendants
are deliberately creating all the expenses which at this time all needless. If we
want to be efficient let us go to the trial right away or go to guided settlement
under court supervision and the plaintiff is ready to accept 50% of the
damages in both cases of Raytheon and Intel. The defendants caused
incurring all unbearable expenses and burdens of their making. The plaintiff
is still handling all the responses to their unrelated frivolous motions and the
time is continued to pass by years.
45.lt is unconstitutional to deprive any free American from his
constitutional rights, legal rights or any rights because he doesn’t have money,
then he must accept abuse and cannot go to court to fight for his rights. We
are all equal under God, and under the United States Constitution.
46. Intel Case Pacer Docket speaks for itself, shows that after
Mankaruse filed his Amended Complaint (“11/22/2019” Intel filed zillion
00

motions.
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

oo
Q_

47.For all these factual reasons, the United States Supreme Court have
the responsibility firsthand to defend our constitution, respectfully should
Reverse its Opinion and be overwhelmed by defending nothing else but the
United States Constitution as written.
48.Mankaruse prays that this Honorable the United States Supreme
Court reexamine case history in the Courts for the Best of Our Nation,
defending our Constitution fiercely not for Mankaruse, Intel, Raytheon only,
but for the United States of America, the United States Supreme Court is
defending our Constitution.
SUMMARY OF THE ARGUMENT & QUESTIONS PRESENTED
49.Districtn Court Order requiring Mankaruse to furnish $25K
Security Bond must be supported by constitutional grounds, Mankaruse is
NOT a vexatious litigant (“Appendix 99-105); “based on the 8/1/2019 Order
by the Superior Court of California, Honorable James Crandall presiding
’’...there is reasonable probability of Prevailing “Appendix 105, Item #D”.
50.The District Court did not get chance to examine Lodged Device with
Intel Logo (“Appendix 73, item 44) against the Patents Infringed Analysis in
the Amended Complaint providing grounds & Analysis for prevailing.
CM
CO
oo
Q-

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

51.There are no grounds that made the District Court violates the
multiple United States Constitution Amendments as originally written while
the Federal Circuit concur even with wrong case count by any means is only
one case if considering Qualified Cases and three if considered all cases of
INTEL and Raytheon together (“Appendix 19, item C”) which is the real
number is One is less than five (5), which does not reach the limit to be named
vexatious litigant, however unconstitutional.
52.Does Intel litigation history and strategies diverting the litigations in
the State Court qualified case (“Table #1 in this document”) present any
alarming signals to the District Court, the Federal Circuit concurred with the
District Court without any real reason without even counting the qualified
cases (“Appendix 19, number C”). The history of litigation until today “more
than two years” in the District Court and Appeals Case entertaining several
unrelated frivolous motions ignoring litigating the Complaints on the merits
and violating the Ruling of the State Court (“Appendix 99-105”) and the
United States Constitution, (“ Bill of Rights, 1st, 5th, 8th and 14th
Amendments”), and the California State Constitution (“items 22-29 of this
Document”).
53.Does the Federal Circuit Erred to count the number of cases wrong
and base their conclusion on adding all filed cases to both Intel and Raytheon
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

no

ro
CL

(“Qualified and Unqualified”) and never Noticed the “State Court Order
8/1/2019 (“Appendix 100-105”). The single qualified case as Pro Se even never
reached the number of cases to five? “CCP391, CCP(391(b)(2)&(3).”
54.Asking why this plaintiff have been mistreated with some of this
unhuman misconduct, please watch the 4 minutes abc 10 News Video Aired on
November 6, 2013 from the link here; https://voutu.be/br2239gT2Q4.
Basically, this plaintiff is mistreated and Continued to be mistreated unfairly
by these defendants even in the Courts of Law pursuant to our Constitutions,
the truth must prevail.
55.Analvsis (“Appendix 107-111”) Minute Order Plaintiffs NonVexatious Litigant (Appendix99-105)
(Item #1); Five Litigations Determined Adversely In Preceding 7 Years
defendants’ Motion declaring plaintiff Nagui Mankaruse and Determined
NOT Vexatious Litigant In the Preceding 7 Years
DENID on the Grounds Listed.
(Item #2); Repeatedly Litigates Claims
DENIED on the Grounds Listed.
(Item #3); Unmeritorious Fillings Have Caused Undue Delay Repeatedly
DENIED on the Ground Listed.
D. Reasonable Probability of Prevailing.

m
DO
(V

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

56.1n the top of the Caption sheet of the Federal Circuit opinion
(“Appendix 9top line”) the Honorable Federal Court Judges wrote on May 7,
2021 (“NOTE: This disposition is unprecedented”)!!!
57.Looking at this sentence with an Analyzing eye must raise several
questions with no Answers. It is left to our Great Honorable nine Justices of
the United States Supreme Court to think about why the Federal Circuit do
this to this Appellant in this case at this time???
58.TABLE I
((Qualified) Pro Se Actions Against INTEL)
Case Name and No.:
Mankaruse v. Intel Corporation, et al.
NOT TO BE COUNTED WITH Case No. 30-2016-00884058
Date Filed:
RAYTHEN CASES
October 31, 2016
RAYTHEON
Disposition:
The State Court ERRED in his Intel’s demurrer was sustained without leave to amend.
(RJNf 12, Ex.
QUALIFIED

59.TABLE II
((Tin-Qualified.) Pro Se Actions Against INTEL)
Case Name and No.:
NOT- QUALIFIED
Mankaruse v. Intel Corporation, et al.
NOT RELATED TO
Case No. 30-2018-00971179-CU-IP-CJ
Date Filed:
RAYTHEON
February 2,2018
Plaintiff Dismissed
Disposition:
Plaintiff dismissed the case on July 17,2018. (RJN % 10,
Ex. 14).
Case Name and No.:
NOT- QUALIFIED
Mankaruse v. Intel Corporation, et at.
NOT RELATED TO
Case No. 30-2018-00971116-CU-BC-CJC
Date
Filed:
RAYTHEON
February 2,2018
Disposition:
Plaintiff Dismissed
Court sustained Intel’s demurrer on June 12, 2018.
Amended

LO
CO
QJ

uo

(TO

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

60.The District Court have issued an Order violates (“Bill of Rights, 1st,
5th, 8th, and 14th Amendments”) and our California State Constitution Article
1, Sections 1, and 2.
61.According to “Bill of Rights” the first ten Amendments of our great
Constitution the petitioner lost most of his civil rights and have been taken
away from him by the District Court and Affirmed by the Federal Circuit
“...It guarantees civil rights and liberties to the individual-like freedom of
speech, press, and religion. It sets the rules for due process of the law and
serves all powers not delegated to the Federal Government to the people of the
States...”
62.The First Amendment
(“...abridging the freedom of speech, or of the press; or the right of the people
peaceably to assemble, and to petition the Government for a redress of
grievances...”)
abridging the freedom of speech, or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a redress of grievances.
Number of Cases against Intel more than five which were only one Case
qualified and 2 other unqualified pursuant to the State Law and the second
ruling of the State Court (“Appendix 99-105”). The Plaintiff filed the two
unqualified cases because the California Uniform Trade Secrets Act

ro
QO
^5

("CUTSA") is located at sections 3426 to 3426.11 of the California Civil Code
\
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

require in CC 3426.6 (“...for the purposes of this section, a continuing
misappropriation constitutes a single claim.”). The Plaintiff bifurcated the
State 2016 Case into two cases (“Table II in this Document”) one case has One
Claim only for Misappropriation of the Trade Secrets, and the 2nd case was
containing all the other causes of actions.
ARGUMENT
63.The legitimate case filed in the United States Federal District Court
for the Central District of California, Southern Division, case number 8:19-cv01902-DC-JDE is patent infringements (“Appendix 68-74”). The decision of
the District Court (“Appendix 24-25”) was Appealed by the plaintiff in
February 2020 to the United States Ninth Circuit Court of Appeals Case
number 20-55189 on February 12, 2020, (“Appendix 62-66”) after the case
was fully briefed and ready for an Opinion. The Appeal was transferred
unilaterally by Intel on September 21, 2020, to the United States Court of
Appeals for the Federal Circuit Case number 2020-2297 to start the time
again. (“Appendix 53-60” The United States Court of Appeals for the Federal
Circuit Issued its Judgement Affirmed the District Court Judgement on May
7, 2021. (“Appendix 13-20”). The Rehearing and Rehearing En Bank was
Denied on July 8, 2021. (“Appendix 54-61”). Before that the Plaintiff Nagui
Mankaruse has filed Trade Secrets case against INTEL in the California State

r^
co
Q0
03

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

i

Court, Case number is 30-2016-00884058-CU-IP-CJC, on October 30, 2016,
and was concluded by Dismissing the case after three false Demurrers of the
Complaint on July 7, 2018 by the Honorable Judge Craig Griffin. (“Appendix
77-91”)
64.Petitioner Mankaruse In Pro Se in this Action against Intel
Corporation is Patent Infringement and Application case number 8:19-cv0192-DOC-JDEx. The Federal District Claim was never litigated before
because the State Court does not have Jurisdiction over Patent litigations!
65.Petitioner Nagui Mankaruse, In Pro Se have sued Intel only one
Qualified time “CCP 391(b)(2) & Court Order 8/1/2019.” Trade secrets
misappropriation case# 30-2016-cv-00884059-CU-IP-CJC is the only qualified
case to be counted in measuring vexation litigant case numbers however Un­
constitutional.
66.Nagui Mankaruse has been injured by Intel when he found out that
Intel, an American Multinational Corporation deceived the Courts and violate
two of its own signed documents “Corporate Non-Disclosure Agreement
(“CNDA” & HHL”) (“Appendix 3-5”) In 2004 before Mankaruse encounters
with Intel in 2004 and 2007.”
CO
CO
CD
O-

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

67.Mankaruse here is being blamed twice once by the District Court
and second by this Honorable Federal Circuit of filing this Action of Patent
Infringement against Intel. Mankaruse is doing what any individual or entity
must do if his/her Intellectual Property is Infringed. This is guaranteed by the
Bill of Rights and the First Amendment in the United States Constitution.
Seeking Court permission and requesting to furnish Security Bond of any
order of magnitude to prevent him from demonstrating his Constitutional
rights because is not represented by Council is clear violations of the Bill of
Rights, First, Fifth, Eighth and Fourteenth Amendments of the United States
Constitution & Article I of California Constitution which demonstrate clear
transgression on our United States Constitution itself as originally written.
68.The District Court Order is simply violation to our United States
Constitution as originally written and have no standing, which also are
explained in the opposition to the District Court ruling declaring Mankaruse
vexatious litigant and Order him to furnish Security Bond. In the Brief &
Reply and Memorandum in this Federal Circuit. However Unconstitutional,
CCP [391-391.8] & 391(b)(2). (“93-98 &106-111”). The Intel situation, the
counted number of cases is less than five cases even counting the Quailed and
Unqualified numbers of cases which is wrong even against any method of

CT)

cn
counting. The qualified cases to be counted in this situation of Intel is ONE
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

ao
cx

case only and three if considered all cases “Qualified and Unqualified” which
is less than five cases pursuant to The three cases all different Causes of
Actions and CCP[391 (b)(2). (“Table 1 and Table 2”) (Appendix 57-58”).
69.The plaintiff is declared vexatious litigant against defendant(s), it
must have the count against that particular defendant(s) only exactly,
CCP391 (b)(2) “After a litigation has been finally determined against the person,
repeatedly relitigates or attempts to relitigate, in propria persona, either (i) the
validity of the determination asainst the same defendant or defendants as to
whom the litigation was finally determined or (ii) the cause of action, claim,
controversy, or any of the issues offact or law, determined or concluded by the
final determination asainst the same defendant or defendants as to whom the
litigation was finally determined.” which is the case of Intel here, since the
defendants litigated in the three presumed cases with one is only qualified case
subject of the discussion here were different Defendant(s) and the claims are
different in both the Qualified and Unqualified cases also can be counted as
one case. The District Court and the Federal Circuit concurred Erred on Intel
because it did not & must not count as five (5) cases absolute at the time of the
Order, even with careful examination of all cases of Intel and Raytheon
separately no two cases have exactly the same defendants and/or Causes of

O
<D
U0
03

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

Actions (391(b)(2). We cannot add all cases as numbers without applying the
Statute exactly and carefully as written. “CCP391(b)(2)’\
70.The Honorable Federal Circuit is criticizing that the Intel and
Raytheon actions of infringement of the ‘512 US Patent & ‘458 Canadian
Patents (“114-118”)and its applications the trade secrets are identical, which
is not true at all. First in the amended complaint against Intel, the Infringing
Device is the CPU Cooler, second, the Causes of Actions are: Indirect
(Induced) Infringement 35 U.S.C. 271 & 271(b) and Direct Infringement
Cause of Action 35 U.S.C. 271, 271 (a), and the Applications of the Patents
used to build the CPU Cooling (trade Secrets). In Raytheon situation the
amended complaint causes of actions are Direct Infringement 35 U.S.C. 271 &
271(a) and the application on the Fire Finder RMI, The Sentinel Improved
radars and THAAD Missile Defense System. The two Causes of Actions are
using the trade secrets of the Patented two-phase cooling technologies and its
Applications Statutes.
71.The Infringing products are completely different animals, and the
basic technologies are using the same patented two-phase cooling technologies
with variations on the two distinct and appropriate applications (trade
Secrets) which make the picture complete and unique for each product as
O)

oo
Q_

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

being used and applied to both Intel and Raytheon. (Please refer to the
amended complaints of Intel & Raytheon.)
72.Mankaruse sued Intel in the State Court only one time case#30-2016cv-00884059-CU-IP-CJC, which is qualified to be counted pursuant to CCP
[391-391.8] & 391(b)(2) provisions, which is less than five which unqualify and
invalidates the District Court Order under this Rehearing. As this honorable
Federal Circuit prescribed in page #3 of the Opinion as various claims various
defendants it cannot be counted multiple times in either Intel or Raytheon
cases “CCP391(b)(2).”
73.The specific detailed analysis to the infringements of the two patents
claims that were infringed are included in documents and illustrations of
quick analysis in the Intel amended complaint and detailed in other discovery
including 100 pages (about 50 pages for each encounter) of correspondences
with intel through and after the two encounters with Intel during 2004 and
2007 “made available to Intel”.
73.From the start intel has signed two agreements in 2004 (“ Appendix
3-5”) before start disclosing the protected technologies and its applications in
2004 and in 2007 with physical prototype in the two hours meeting to more
than 15 distinguished engineers, managers and directors in one of the
Buildings of Intel Campus in Chandler, Arizona in 2007 with questions and
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

CN
a)

GO

answers part which it was praised by the audience at the end of the
presentation.
75.lt was mentioned also at that time by Intel leaders after the
scheduled meeting that the disclosed performances of the CPU Cooler device
when used with Intel CPU “Is too Good to be True” based on the amazing
results presented “it proved that it increase the CPU speeds more than 40
times what it was”. At that time Intel suggested to Mankaruse to do outside
tests and bring them to Intel to believe it, then Mankaruse told them face to
face if this is the case, we can do the tests here in your testing lab. and you can
watch it since it can cost around $100K if done in an outside lab. The answer
immediately was we have no time. In 2015 Mankaruse discovered one
infringed CPU Cooler is selling on Amazon website and he bought few of them
and has one of these units lodged in the District Court (“Appendix 71, item
#23.) until today, its pictures are in color in the Memorandum.
76.1ntel never disputed the facts mentioned above and they accepted the
patented technologies back then until today and while filling demurrers to the
complaint in the State Court never got beyond demurrers of frivolous
procedural errors within two years in the State Court against one of the
mostly perfect complains that could be Hied.

CO
<u

ao
Q-

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

77.The State Court Judge have missed one of the Actions must be taken
by him before rejecting the first amended complaint and later after the third
demurer dismiss the case all together, is to make a conference with both
parties to show where the dispute if any in the complaint which were never
done and he chose to dismiss the complaint instead in violation of the State
Court local procedures rules Documented. Immediately after signing the case
dismissal, he was transferred to one of the County satellite Courts from the
Central Justice Center.
78.1n February 2, 2018 Mankaruse filed 30-2018-00971116 and 30-301800971179 was bifurcation of different claims in case #1 here one case was only
Trade Secret misappropriation and the second was other civil claims related
to breach of contract and the Non-disclosure agreement,... to meet the
requirement of CCP 2019.210 which require the trade secret cause of action
separate case, of CCP [391-391.8] & 391(b)(2).
79.The cases count against Intel is being listed and analyzed in detail in
table I & II (“Items §8 & 59 in this document”) and its status and comments.
80.1n the present Federal District case filed October 3, 2019 within few
weeks, Mankaruse filed an amended complaint in the Intel case to add
information defined the issues and include different parties to make the First

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

"vj<U

ao

Amended Complaint more precise with more supported verified data which
are absolutely allowed without motion to leave to amend, can’t see what is
wrong with that particularly the Federal District Court has required detailed
complaints lately.
81.Intel always followed Raytheon in filing bundles of frivolous motions
to kill the cases before its inception as usual and suggested the prefiling
approval and Bond issues, which are completely obscured and motivated,
since the final and last Order of Honorable James Crandall of the State Court
dated 8/1/2019 (“Appendix 100-106”) has DENIED Raytheon vexatious
motion on its entirety. Intel only sued onetime which is less than five qualified
cases to be declared Mankaruse vexatious litigant. Mankaruse was clear to file
this case in the Federal District Court on 10/3/2019 and to file the Raytheon
Case in the Federal Court in the same day. Mankaruse is not vexatious
litigant pursuant to State Court Ruling of 8/1/2019, CCP [391 -391.8] and
CCP391(b)(2) and Against the Eighth Amendment “...nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb...” The
current motion declaring Mankaruse vexa tious litigant is valid because it is
unconstitutional.
LO

■vf

QJ
OO

Q-

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

82.Since 2016 Mankaruse have been in Courts against Intel and
Raytheon In Pro Se, but never passed the complaints phase, refusing to start
any form of discovery leading to trial on the merits.
83.Both Intel and Raytheon spending millions of dollars in Attorney’s
fees to keep the cases in status quo and kill the cases with procedurals
frivolous tactics in deceiving and providing false information to the courts in
absence of any discoveries, filing bundles of frivuious unrelated motions
avoiding going to trials on the Merits. (US Constitution Bill of Rights and
Amendments 1, 5, 8, & 14 and CCP391(b)(2).
84.Mankaruse actual complaints of his stolen Intellectual Properties is
on the merits as the law of the land allows for fairness under the law and the
Constitutional rights in California and in Untied States Constitutions, but all
of that is ignored by both multi-national Companies, not only that but they
spend all these resources and vast expenses on unneeded litigations since 2016
for no reasons other than evading the laws of the land and violating our
constitution and killing the fairness in our great Nation.
85.lt is not the Mankaruse history of litigation, however its of Intel and
Raytheon history of litigation which are abusing the system in bad faith.
LO
OJ

oo

2
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

86.What are we doing here since Mankaruse filed his Complaint against
Intel in the District Court on October 3, 2019? The Answer is: Mankaruse
filed his Appeal in the ninth Circuit in January 21, 2021 followed by Intel
transferred the case to the Federal Circuit in September 2021. Counting how
many cases Mankaruse filed against intel and Raytheon! What Mankaruse
did since the filed the complaints against Intel and Raytheon. The Complaints
were for Patents Infringements, but immediately Intel and Raytheon filed
bundle of frivuious Motions immediately after.
87.Mankaruse has offered intel new patented technology and
intellectual property based on signed agreements conditional not to be used by
intel or any third party without his consent with legal licensing of the
technologies. Why we are here now? The answer is because Intel violated the
agreement intentionally and refused to affect the agreements but never did
and never can Deny the illegal use of the infringing device that are installed in
all computers with every Intel Central Processing Unit (CPU). The evidence
available physically at hand in one device called CPU Cooler and in every
computer in the world uses Intel CPU.
88.Mankaruse is ready to go to trial anytime now even without any
discoveries because the evidence are available in every commercial computer

r^

<3uses Intel in the world now to get the absolute truth out pursuant to the
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

DO
CL

Complaint which is the Goal anyway. Intel has everything in their hands
already and accepted the Patents and analysis of the applications to build
working CPU as it is already done and completed in 2004 and 2007
encounters.
89.The Federal Circuit Here Erred again not only in violation of the
United States Constitution Bill of Rights, First Amendment, Fifth
Amendment, Eight Amendment and Fourteenth Amendment. Using
discretion of the Federal Circuit opinion which is not applicable here because
there is only one qualified case against Intel pursuant to CCP [391. -391.8] &
391(b)(2) which is less than the five cases limit for any Pro Se litigant to be
considered vexatious and State Court Order of 8/1/2019 (Volume II #1,1-6).
What is the limit that controls the transgression on Our Constitution, it
should not be any Court in the land, who is the ones defending the
constitution, if it came from any other entity or individual no mater why this
can be it should be stopped and corrected by any Court and certainly by the
Unites States Supreme Court?
90.The Mankaruse history of litigation or any kind of history of any
American cannot justify denying any American entity or individual any word
of his/her constitutional rights built by the founder of this great Nation after
the Independence of our great Nation which fought to preserve this
PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

00
D

ao
to

constitution to our great Nation and all Americans, their freedom and every
American freedom that comes after them to the end of days. The INTEL
litigation history are analyzed in detail in the Intel Panel Rehearing and
Rehearing En Bank
CONCLUSION
91.The petitioner pray that the United States Supreme Court Grant this
Writ of Certiorari for the sake of the United States Constitution and for this
petitioner be saved from all injustices happened to him since 2004 by Intel
Corporation and every plaintiff decide to fight for his/her constitutional
rights.
Respectfully submitted,
Dated July 29, 2021

NAGLIl (NAGY) MANKAKUSE
Petitioner-Appellant In Pro Se

cn
<u

no
Q_

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

